UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 17 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

ALBERTO GUILLEN,
Petitioner-Appellant,

No.

20-35125

D.C. No. 9:19-cv-00022-DLC
District of Montana, Missoula

v.
ORDER
PATRICK MCTIGHE, TIM FOX,
Respondents-Appellees.
Before:

OWENS and BENNETT, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 3) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 9:19-cv-00022-DLC Document 12 Filed 01/28/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
MISSOULA DIVISION

FILED
JAN 2o 2020
Clerk, U.S Courts
District Of Montana
Missoula Division

ALBERTO GUILLEN,
CV 19-22-M-DLC-KLD
Petitioner,
vs.

ORDER

ATTORNEY GENERAL OF THE
STATE OF MONTANA,
Respondent
United States Magistrate Judge Kathleen L. DeSoto issued an Order and
Findings and Recommendation in this case on November 5,2019, recommending
that the Court deny Petitioner Alberto Guillen’s petition for writ of habeas corpus
for lack of merit. (Doc. 10.) Guillen filed an Objection to the Findings and
Recommendation, which the Court deems timely. (Doc.11.) Consequently,
Guillen is entitled to de novo review of those findings and recommendations to
which he has specifically objected. 28 U.S.C. § 636(b)(1)(C). Absent objection,
this Court reviews findings and recommendations for clear error. United States v.
Reyna-Tapia, 328 F.3d 1114,1121 (9th Cir. 2003) (en banc); Thomas v. Am, 474
U.S. 140,149 (1985). Clear error exists if the Court is left with a “definite and

-1-

Case 9:19-cv-00022-DLC Document 12 Filed 01/28/20 Page 2 of 5

finn conviction that a mistake has been committed.” United States v. Syrax, 235
F.3d 422,427 (9th Cir. 2000) (citations omitted).
Judge DeSoto identified eight potential routes to relief in Guillen’s petition.
(Doc. 10 at 7-8.) She then analyzed whether any of Guillen’s claims met the
deferential standards required under the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”), separating Guillen’s claims attacking the state court’s
findings of facts from those alleging that the Court erred in its analysis of law.
Guillen largely restates his petition in his Objection, arguing again that the state
court’s adjudication of his state petition for postconviction relief involved both an
unreasonable determination of the facts and an unreasonable application of clearly
established law. Reviewing de novo, the Court overrules Guillen’s Objection in its
entirety and adopts Judge DeSoto’s Findings and Recommendation.
Guillen objects to Judge DeSoto’s recommendation that the Court deny for
lackpfmerittiipseclaimsJ»oughtimder28.y..S.C. § 2254(d)(2), in which Guillen
alleged that the Montana Supreme Court’s adjudication of his petition for
postconviction relief rested on “an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding.” Guillen argues that the
facts developed before the state trial court conclusively prove that he is innocent of
the relevant crime of conviction. Guillen pled guilty to attempted mitigated
-2-

Case 9:19-cv-00022-DLC Document 12 Filed 01/28/20 Page 3 of 5

deliberate homicide after lie drove his van Over his brother, Roberto. Roberto
testified during the state postconviction proceeding that he believed the incident
was in fact an accident for which he bore partial responsibility.
The state court’s findings of fact regarding Roberto’s testimony are not
“objectively unreasonable.” Miller-El v. Cockrell, 537 U.S. 322,340 (2003).
Affirming the state district court’s rejection of Guillen’s petition, the Montana
Supreme Court noted that the “testimony, to which the District Court attributed
\

little value based on Roberto’s lack of credibility, simply provides somewhat
circumstantial evidence tending to negate the element of mens rea.” Guillen v.
Montana, 415 P.3d 1, 5 (Mont. 2018). Given the weight of evidence supporting
Guillen’s guilty plea, the state court did not “unreasonabl[yj” find Roberto’s
testimony insufficient to set aside Guillen’s conviction. 28 U.S.C. § 2255(dX2).
The Court overrules Guillen’s objection to the state court’s factual findings.
Guillen also objects to Judge DeSoto’s recommendation that the Court deny
for lack of merit Guillen’s claims that the adjudication of his state petition for
postconviction relief “resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States.” 28 U.S.C. § 2255(d)(2). Guillen argues that
the state court erred in its application of Strickland v. Washington, 466 U.S. 668
-3-

'

Case 9:19-cv-00022-DLC Document 12 Filed 01/28/20 Page 4 of 5

(1984). Guillen’s allegations of ineffective assistance of trial counsel arise from
trial counsel’s failure to use Roberto’s testimony to Guillen’s advantage either
prior to Guillen’s change of plea or at sentencing.
The state court’s adjudication of Guillen’s petition is not incompatible with
Strickland. Trial counsel made tactical decisions toi (1) recommend that Guillen
plead guilty to a lesser offense given the existence of three eyewitnesses (other
than Roberto), who believed that Guillen’s operation of the van was deliberate; and
(2) avoid presenting Roberto—a sympathetic, wheelchair-bound victim—to the
sentencing court, particularly because Roberto’s feelings toward his brother appear
to have been less forgiving at that time than they were years later during the post­
conviction proceeding. The state court accurately stated the law and found that
neither prong of the Strickland test was met; even if trial counsel’s choices could
not be described as reasonable tactical decisions, there was no showing that “a
reasonable probability exists that [Guillen] would not have pleaded guilty” in light
of the strong evidence supporting conviction. Applying AEDPA deference, the
Court sees no error in the state court’s adjudication of Guillen’s petition for
postconviction relief. Guillen’s objection to the state court’s legal analysis is
overruled.

-4-

Case 9:19-cv-00022-DLC Document 12 Filed 01/28/20 Page 5 of 5

The Court finds no clear error in the remaining portions of Judge DeSoto’s
Findings and Recommendation. The Court does not find that “jurists of reason
could disagree with [its] resolution of [Guillen’ s] constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.” Miller-El, 357 U.S. at 327. Thus, the Court adopts Judge
DeSoto’s recommendation to deny a certificate of appealability.
Accordingly, IT IS ORDERED:
(1) Judge DeSoto’s Findings and Recommendation (Doc. 10) is ADOPTED;
(2) Guillen’s Petition (Doc. 1) is DENIED for lack of merit;
(3) A certificate of appealability is DENIED; and
(4) The Clerk of Court shall enter judgment in favor of Respondents and
against Petitioner.
DATED this

&

day of January , 2020.

Dana L. Christensen, Chief Judge
United States District Court

-5-

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 1 of 31

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
MISSOULA DIVISION
ALBERTO GUILLEN,

■ftsssss

Cause No. CV 19-22-M-DLC-KLD

Petitioner,
ORDER AND FINDINGS AND
RECOMMENDATION OF UNTED
STATES MAGISTRATE JUDGE

vs.
PATRICK MCTIGHE, TIM FOX,
Respondents.

This case comes before the Court on state pro se petitioner Alberto Guillen’s
application for writ of habeas corpus under 28 U.S.C. § 2254. For the reasons set
forth below, Guillen’s petition should be denied.
I.

28 U.S.C. § 2254 Petition

The Court is required to screen all actions brought by prisoners who seek
relief. 28 U.S.C. § 1915(a). The Court must dismiss a habeas petition or portion
thereof if the prisoner raises claims that are legally frivolous or fails to state a basis
upon which relief may be granted. 28 U.S.C. § 1915A(b)(l), (2). The Court must
dismiss a habeas petition “[i]f it plainly appears from the petition and any attached
exhibits that the petitioner is not entitled to relief.” Rule 4 Governing Section 2254
Cases. Because Guillen’s claims do not survive deferential review, his petition
should be denied.
1

utt

Case 9:19-cv-00022~DLC Document 10 Filed 11/05/19 Page 2 of 31

II.

Procedural History

On July 30, 2011, following a verbal argument and physical altercation with
his twin brother, Roberto, Guillen got in his van and struck and ran over Roberto,
who was on a bicycle, at an intersection in Missoula, Montana.1 Guillen fled the
scene; Roberto sustained life-threatening injuries and was hospitalized for a month
following the collision. On August 15,2011, Guillen was charged in Montana’s
Fourth Judicial District, Missoula County, with Attempted Deliberate Homicide
and Leaving the Scene of an Accident Resulting in Serious Bodily Injury. During
all district court proceedings, Guillen was represented by Edmund Sheehy of the
Office of the State Public Defender.
Guillen and the State eventually arrived at a resolution of the matter. While
the parties did not reach an agreement as to the appropriate sentence for Guillen,
the State did agree to amend the Attempted Deliberate Homicide charge to a lesser
included offense and the parties were free to argue for whatever sentence they
deemed appropriate. On November 10,2011, Guillen entered guilty pleas to
Leaving the Scene of an Accident and the amended charge of Attempted Mitigated
1 The following factual summary is taken from the Montana Supreme Court’s
opinions in State v. Guillen, 2013 MT 184N, 372 Mont. 547, 317 P. 3d 201
(Table), and Guillen v. State, 2018 MT 71, 391 Mont. 131,415 P. 3d 1, and is
presumed correct. See, Vasquez v. Kirkland, 572 F. 3d 1029,1031, n.l (9th Cir.
2009) (“We rely on the state appellate court’s decision for our summary of the
facts of the crime.”).
2

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 3 of 31

Deliberate Homicide.
On December 29, 2011, the district court held a sentencing hearing. Roberto
did not testify at the sentencing hearing nor did he provide a victim-impact
statement to the Presentence Investigation (PSI) writer. Roberto’s then girlfriend,
Sherri Sleepingbear did testify, however, and sought a lengthy sentence,
purportedly on behalf of Roberto. Sleepingbear testified in part:
“[Roberto] wanted me to come here and just tell the court” that “[y]ou
destroyed us. You killed your brother. You might as well have killed him,
because you pretty much did... [Roberto] just wanted me to look at you
straight in the face and tell you exactly what.. .you did to him.”2
The district court sentenced Guillen to the maximum sentence of forty (40)
years at the Montana State Prison for Attempted Mitigated Deliberate Homicide
and a concurrent ten (10) year sentence for Leaving the Scene of an Accident.
Guillen did not file a direct appeal.
l.

Motion to Withdraw Proceedings

On April 12, 2012, Guillen filed a motion to withdraw his guilty plea in the
district court, arguing that his plea was involuntary and that the sentence imposed
constituted a breach of the parties’ agreement. Guillen argued Sheehy misadvised
him the agreement he entered into called for a fifteen (15) year sentence and, thus,
his plea was coerced.
The district court denied Guillen’s motion, finding that his acknowledgment
2 See, Guillen v. State, 2018 MT 71, ^ 20.
3

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 4 of 31
on the waiver of rights/plea of guilty form established that there was no agreement
in place as to the appropriate sentence and that he could receive up to the
maximum sentence allowed by law. Guillen failed to present additional evidence
to support his claim that the plea was involuntary.
Guillen filed a direct appeal to the Montana Supreme Court, advancing the
same claims regarding the voluntariness of his plea. In affirming Guillen’s
conviction and sentence, the Court determined the district court’s findings
regarding Guillen’s waiver of rights and the lack of sentencing agreement were
supported by substantial evidence in the record and that the lower court properly
applied well-settled state law. State v. Guillen, 2013 MT 184N, ^ 8, 372 Mont.
547, 317 P. 3d 201 (Table). The United States Supreme Court denied Guillen’s
Petition for Certiorari. Guillen v. Montana, 134 S. Ct. 2143 (May 5, 2014).
ii.

Postconviction Proceedings

In January of 2015, Guillen filed a petition for postconviction relief (PCR) in
the district court. Guillen alleged that he possessed newly discovered evidence of
his actual innocence and that Sheehy provided ineffective assistance during plea
negotiations. Following a response from the State, the district court held a two-day
evidentiary hearing which involved testimony from several witnesses.
Roberto, who remained confined to a wheelchair, testified that despite not
having a prior recollection of the collision, now recalled the incident and believed
4

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 5 of 31
it was an accident and that his bicycle may have swerved in front of Guillen’s van.
Three eyewitnesses to the incident: Shannon Shields, Diane Jontow, and
Josh Jontow, also testified regarding their observations. Each witness believed
Guillen intentionally struck and ran over Roberto. Sheehy also testified and
explained his strategy surrounding plea negotiations and sentencing.
The district court found Sheehy and the eye witnesses’ testimony to be
credible, but that Roberto’s testimony was not. Ultimately, the district court
denied Guillen’s PCR petition, finding that he did not establish he was actually
innocent of the underlying crime or that he had received ineffective assistance of
counsel.
iil.

Postconviction Appeal

Guillen appealed arguing the district court improperly denied his claim of
actual innocence and that the ineffective assistance of counsel he received resulted
in an involuntary guilty plea.
Guillen claimed in light of Roberto’s testimony, that the incident was
possibly an accident, there was reason to believe that he did not intentionally
commit the offense and the Court erred in determining the claim lacked evidentiary
support. See, Guillen v. State, 2018 MT 71, f 15. While Guillen argued that
Roberto’s testimony undermined the mens rea element of attempted mitigated
homicide, the Court noted proof of mens rea is almost always inferred from
5

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 6 of 31

circumstantial evidence because it is impossible to have direct knowledge or proof
of what is in someone’s mind. Id. The Court determined the district court properly
found Roberto’s testimony, that he may have swerved in front of Guillen’s van and
that fault for the accident could be attributable to both of the brothers, was not to
be credible. This finding regarding credibility was supported by the other three
eyewitnesses’ unequivocal testimony that Guillen acted intentionally*. Id. at 16.
Thus, the district court properly denied Guillen’s claim of actual innocence. Id.
Guillen maintained that Sheehy performed deficiently by failing to interview
Roberto and instead relied upon police reports and a newspaper article, all of
which indicated Roberto had no recollection of the incident. Id. at 1} 19.
Accordingly, Guillen argued his decision to plead guilty was based upon an
incomplete understanding of the facts of the case and was involuntary.
The Court agreed with the district court that Sheehy’s decision not to
interview Roberto was tactical and did not constitute ineffective assistance of
counsel. The Court noted that Sleepingbear’s testimony at sentencing indicated
Roberto did not wish to be involved in the case or in the sentencing. Id. at ^ 20.
Sheehy did not seek out contact with Roberto because he believed doing so could
possibly result in a harsher sentence for Guillen, particularly in light of the fact that
Roberto was partially paralyzed and would present sympathetically. Id. Sheehy’s
tactical decision did not amount to deficient performance.
6

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 7 of 31
Moreover, the Court held even if Sheehy had performed deficiently, the
failure to interview Roberto did not prejudice Guillen. Id. at ^ 21. Guillen
explained that he pled guilty, even believing the incident may have been an
accident, in order to limit his overall exposure and potential sentence,
I was facing 100 years, and the prosecutor told me that that’s what
he’s going to be going for and I- I didn’t see any- any evidence that
was going to help me fight this case, you know.
Id. Thus, Guillen failed to demonstrate, that but for counsel’s errors there existed a
reasonable probability that he would not have entered a guilty plea. Id. Thus, the
Court determined the district court properly determined Guillen failed to establish
counsel was ineffective.
III.

Guillen’s Claims

Guillen alleges the following violations: (1) the Montana Supreme Court’s
adjudication of his claim resulted from an unreasonable determination of the facts
because it relied upon Roberto’s initial statement to law enforcement that he had
no recollection of being struck by the van, but Roberto’s statements during this
time period were unreliable, (Doc. 1 at 9-10); (2) the Montana Supreme Court’s
adjudication of his claim was based upon an unreasonable determination of the
facts because it found Roberto testified he had possibly swerved in front of
Guillen, making the collision equally his fault, Id. at 11-13; (3) the Montana
Supreme Court’s decision was based upon an unreasonable determination of the
7

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 8 of 31
facts because its finding that the eyewitnesses told a coherent story at the PCR
hearing is contradicted by the record, Id. at 13-33; (4) the Montana Supreme
Court’s decision that Sheehy did not provide ineffective assistance by failing to
interview Roberto prior to plea negotiations and/or sentencing was unreasonable,
Id. at 33-35; (5) the Montana Supreme Court’s determination that Sheehy did not
provide ineffective assistance by relying upon a statement provided by Roberto in
a newspaper article rather than his own investigation was unreasonable, Id. at 3536; (6) the Montana Supreme Court’s decision that Sheehy made a reasonable
tactical decision not to interview Roberto, so as not to risk his involvement at the
sentencing hearing, and that Sheehy did not provide ineffective assistance was
unreasonable, Id. at 37-38; (7) the Court’s determination that Guillen pled guilty
even though he believed incident was accidental was objectively unreasonable, Id.
at 39-41; (8) the Montana Supreme Court’s decision finding Sherry Sleepingbear’s
testimony more credible than Roberto’s, in resolving the IAC claim against
Sheehy, was an unreasonable determination, Id. at 41-44; (9) and, the Montana
Supreme Court unreasonably determined that the district court properly denied
Guillen’s PCR petition and that his plea was voluntary, Id. at 45-47.
Guillen requests this Court grant his petition and order his release from
prison. Id. at 7, ^ 16.

8

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 9 of 31
IV.

Legal Standards

To be eligible for federal habeas corpus relief, a state prisoner must establish
that he is “in custody in violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. §2254(a); Williams v. Taylor, 529 U.S. 362, 375 (2000).
A state prisoner “whose claim was adjudicated on the merits in state court is not
entitled to relief in the federal court unless he meets the requirements of 28 U.S.C.
§2254(d).” Price v. Vincent, 538 U.S. 634, 638 (2003). This Court’s analysis of
the merits of Guillen’s claims is constrained by the applicable standard of review.
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA)
applies to Guillen’s petition because it was filed after 1996. AEDPA substantially
limits the power of federal courts to grant habeas relief to state prisoners, Hurles v.
Ryan, 725 F. 3d 768, 111 (9th Cir. 2014), and “demands that state court decisions
be given the benefit of the doubt.” Woodford v. Visciotti, 537 U.S. 19, 24 (2002)
(per curiam). Thus, if a petitioner’s claim has been “adjudicated on the merits” in
state court, “AEDPA’s highly deferential standards kick in.” Davis v Ayala,_
U.S.___, 135 S. Ct. 2187,2198 (2015) (citations omitted).
Under the deferential standard of AEDPA, a federal court may not grant a
prisoner’s petition on a claim that was decided on the merits in state court, unless
the state court’s decision: 1) “was contrary to federal law then clearly established
in the holdings of [the United States Supreme Court]”; 2) “involved an
9

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 10 of 31
unreasonable application of such law”; or 3) “was based on an unreasonable
determination of the facts in light of the record before the state court.” Harrington
v. Richter, 562 U.S. 86, 100 (2011) (internal quotation marks omitted); see also, 28
U.S.C. §2254(d), Lockyer v. Andrade, 538 U.S. 63, 70=71 (20Q3).3 “A state court’s
determination that a claim lacks merit precludes federal habeas relief so long as
‘fair minded jurists could disagree’ on the correctness of the state court’s
decision.” Richter, 562 U.S. at 101 (quoting Yarborough v. Alvarado, 541 U.S.
652, 664 (2004)).
“‘[C]learly established Federal law’... is the governing legal principle or
principles set forth by the Supreme Court [in its holdings] at the time the state
court renders its decision.” Lockyer, 538 U.S. at 70-71; see also, Carey v.
Musladin, 549 U.S. 70, 74 (2006), In addition, the Supreme Court decision must
“squarely address [ ] the issue in th[e] case; otherwise, there is no clearly
established Federal law for purposes of review under AEDPA.” Moses v. Payne,
555 F. 3d 742, 754 (9th Cir. 2009), quoting Wright v. Van Patten, 552 U.S. 120,
125 (2008). If no clearly established federal law exists, the inquiry is at an end and
the court must defer to the state court’s decision. Carey, 549 U.S. at 70; Wright,

3 28 U.S.C. §2254(d) is a gateway. If a petitioner satisfies either subsection (1) or
(2) for a claim, then the federal court considers that claim de novo. See, Panetti v.
Quarterman, 551 U.S. 930, 953 (2007) (when section 2254(d) is satisfied, “[a]
federal court must then resolve the claim without the deference AEDPA otherwise
requires”); see also, Cone v. Bell, 556 U.S. 449,472 (2009).
10

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 11 of 31
552 U.S. at 126.
“For relief to be granted, a state court merits ruling must be so lacking in
/

justification that there was an error.. .beyond any possibility for fair minded
disagreement.” Bemore v. Chappell, 788 F. 3d 1151, 1160 (9th Cir. 2015).
“AEDPA thus imposes a ‘highly deferential standard for evaluating state-court
rulings,’ ...and ‘demands that state-court decisions be given the benefit of the
doubt.’” Renico v. Lett, 559 U.S. 766,773 (2010). The standard is « < difficult to
meet,”’ and a “petitioner carries the burden of proof.” Cullen v. Pinholster, 563
U.S. 170, 182(2011).
V.

Analysis

As explained below, because Guillen has not established that the Montana
Supreme Court’s adjudication of his claims was contrary to or involved an
unreasonable application of Strickland or resulted from an unreasonable
determination of the facts based upon the state court record, this Court must afford
deference to the Montana Supreme Court’s decision.
i.

Claims 1-3: Actual Innocence/Witness Testimony

Guillen’s first three claims are essentially sub-claims to support his
contention that the Montana Supreme Court’s decision affirming the denial of his
postconviction petition was based upon an unreasonable determination of the facts
in light of the record before the court, pursuant to § 2254(d)(2), because he was
11

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 12 of 31

actually innocent of the underlying crime. Guillen asserts the Court erred by:
relying upon Roberto’s initial statement to law enforcement that he had no
recollection of being struck by the van (Claim 1); determining Roberto later
testified that he had possibly swerved in front of Guillen, making both brothers
equally at fault, when Roberto clearly stated he swerved (Claim 2); and, finding
that the eyewitnesses told a coherent story during the PCR proceedings, which is
contradicted by the record (Claim 3).
Under §2254(d)(2), the federal court reviews purely factual questions that
were resolved by the state court. Lambert v. Blodgett, 393 F. 3d 943, 978 (9th Cir.
2004). A state court’s factual determination is entitled to deference under section
2254(d)(2) “unless objectively unreasonable in light of the evidence presented in
the state-court proceeding.” Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).
“[T]he question on review is whether an appellate panel, applying the normal
standards of appellate review, could reasonably conclude that the finding is
supported by the record.” Id. Section (d)(2) “applies most readily to situations
where petitioner challenges the state court’s findings based entirely on the state
record. Such a challenge may be based on the claim that the finding is
unsupported by sufficient evidence...that the process employed by the state court
is defective... or that no finding was made by the state court at all.” Taylor v.
Maddox, 366 F. 3d 992,999 (9th Cir. 2004), abrogated on other grounds by Murray
12

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 13 of 31
v. Schiro, 745 F. 3d 984, 999-1000 (9th Cir. 2014). The standard for finding that a
state court made an unreasonable determination of the facts is “daunting” and “will
be satisfied in relatively few cases.” Taylor, 366 F. 3d at 1000. If “reasonable
minds reviewing the record might disagree about the finding in question, ‘on
habeas review that does not suffice to supersede the trial court’s
...determination.’” Brumfield v. Cain, _U.S.

135 S. Ct. 2269, 2277

(2015)(citations omitted). A state court’s factual determinations are presumed to
be correct, and a petitioner bears the “burden of rebutting this presumption by clear
and convincing evidence.” 28 U.S.C. 2254(e)(1).
In its Findings of Fact, Conclusions of Law, and Order denying Guillen PCR
relief, which were affirmed on appeal, the district court found Roberto’s testimony
not to be credible overall. See, FOF/COL, at 5-6 (March 15, 2016).4 The district
court noted Roberto had difficulty recalling specifics of the events when
questioned and that he initially told the police he had no memory of being struck
by Guillen’s van, but later testified he recalled what happened and that it was an
accident. Id. at

31-32. Guillen stated it was possible he swerved in front of his

brother and he now believed the collision was the fault of both brothers. Id. at ffif
33-34.
Before this Court Guillen argues the fact that Roberto initially could not
4 For purposes of clarity, the Clerk of Court will be directed to file a copy of this
document into the record in this matter.
13

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 14 of 31
remember the incident was unfairly used against him to undermine Roberto’s
subsequent statement that he swerved in front of Guillen. Also, Guillen takes issue
with the fact that the state courts viewed this swerving as “possible” when he
contends Roberto was clear that he swerved in front of Guillen.
There is ample support in the record, however, for the state courts’
determination that Roberto’s testimony was not credible. Roberto testified at the
PCR hearing that he didn’t remember what occurred until at least one month after
the incident when he had left the hospital. (Doc. 1-1 at 37-38). Roberto also
agreed that some aspects of his memory are still hazy. Id. at 41-42. And even
when Roberto described the incident, he was somewhat equivocal. For example,
he surmised that perhaps both he and Guillen were at fault. Id. at 40. While
1 Roberto claimed he now clearly remembered swerving his bike, when asked if it
was his testimony that he now remembered the accident clearly, Roberto
equivocated, “Yeah. To some extent. To an extent I am.” Id. at 42: 9-l l.
Roberto also acknowledged that he wanted to help his brother, wanted to see
him get out of prison, that their mother wanted Guillen out of prison, and that those
were the reasons why he was testifying. Id. at 40-41. Although not explicitly
stated it can be inferred from Roberto’s testimony that he had ample motivation for
attempting to provide helpful testimony to his twin brother; Roberto and his family
wanted Guillen released from prison.
14

Case 9:19-cv-00G22-DLC Document 10 Filed 11/05/19 Page 15 of 31

In light of these considerations, Guillen has failed to meet his burden under
§ 2254(d)(2) of establishing that the state court made an unreasonable factual
determination regarding Roberto’s testimony.
Additionally, Guillen alleges the state courts’ finding that the eyewitnesses
told a “coherent story” at the PCR hearing is contradicted by the record.
The district court found each eyewitness to be credible. FOF/COL,

22,

25,29. The district court noted Shannon Shields testified she viewed the brothers
physically fighting in the street. From her vantage point it appeared that the driver
of the van intentionally struck Roberto. Shannon drew a diagram for the court, and
the court concluded based upon the angle of the van’s travel, the only reasonable
conclusion was that Guillen intentionally struck Roberto. Id. at

19-21.

The Court determined Diane Jontow had a clear view of the incident from
the window of her home and testified she was certain Guillen struck Roberto
intentionally. Id. at

23-24.

The Court also found Josh Jontow had a clear view of the incident from an
open window in his home. Josh heard Guillen say something along the lines of, “I
am going to fuck you up” prior to driving his van directly at Roberto and striking
him. Josh also testified with certainty he believed Guillen intentionally struck
Roberto. Id. at

26-28.

Guillen primarily seeks to establish inconsistency by comparing the hearing
15

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 16 of 31

testimony of each witness with the police reports. See e.g., (Doc. 1 at 14-19; 2025; 25-30.) Guillen also claims that each eyewitness provided hearing testimony
that was inherently inconsistent with one another. Id. at 31-33.
As a preliminary matter, the Court would note that the police reports were
not part of the state court record. Although reference was made to the reports
during the PCR hearing,5 they were never entered into evidence. Accordingly, this
Court will not consider them because they were not part of the state court record.
See e.g., Taylor v. Maddox, 366 F. 3d 992,999 (9th Cir. 2004) (explaining that a
petitioner’s challenge to a state court factual determination under § 2254(d)(2) is
based upon the state court record). Any attempt of Guillen to impeach the
eyewitness testimony with the police records is immaterial to this Court’s
consideration.
Additionally, Guillen attempted to advance a similar argument before during
the PCR hearing:
Well, when I read them there was one that said that there was lilac bushes in
the way, and then there was another one that said that she looked away as it
happened and that my brother looked like he was swerving, and so I don’t
know. Those police reports don’t really seem that accurate on what
happened.
(Doc. 1-1 at 64: 13-18.)
In its findings, the district court did not find Guillen’s argument availing.

5 See e.g. Tms. Hrg. (Doc. 1-1 at 55: 16-18; 64: 3-6,13-18; 110: 6,10-11).
16

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 17 of 31
Moreover, on appeal from PCR, Guillen did not call into question the accuracy or
consistency of the eyewitness testimony, rather he disputed the conclusion that
Guillen acted intentionally:
Of these witnesses, none directly contradicted Roberto. In fact, the testimony
of the State's witnesses is consistent with Roberto's to the extent they
describe the facts they witnessed. Where the State's witnesses deviate from
Roberto is when they draw a conclusion regarding [Guillen’s] actions. The
State's witnesses, from their removed perspective came to the conclusion
that [Guillen] had hit Roberto intentionally with his van. Roberto disagreed.
Guillen v. State, 2017 WL 4125074, Appellant’s Opening Brief, 7-8 (filed Aug. 7,
2017).6 Guillen’s attempt at this juncture, to point out discrepancies he perceives,
is not persuasive.
Guillen has not met the high threshold of showing that the factual findings of
the state courts regarding the testimony from Roberto and the eyewitnesses were
unreasonable, under § 2254(d)(2). See, Schriro v. Landrigan, 550 U.S. 465,473
(2007). Or, put another way, Guillen has not established a court “could not
reasonably conclude that the finding is supported by the state court record.”
Hibblerv. Benedetti, 693 F. 3d 1140, 1146, (quoting Taylor, 366 F. 3d at 1000).
These claims should be denied.
//

6 See also, Guillen’s Reply Brief: “In fact, none of the State's witnesses directly
contradicted Roberto and were largely consistent with his testimony up to the point
where they drew an inference regarding Alberto's intention.” Guillen v. State,
2017 WL 7036396, Appellant’s Reply Brief, 4-5 (filed Dec. 21, 2017).
17

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 18 of 31

ii.

Claims 4-9: Strickland Claims

Guillen generally alleges the Montana Supreme Court erred in its holding
that Sheehy did not provide ineffective assistance to him under Strickland v.
Washington, 466 U.S. 668 (1984), and that the purported ineffective assistance he
received resulted in an involuntary guilty plea.
The clearly established federal law for ineffective assistance of counsel
claims was determined by the Supreme Court in Strickland. Under the two­
pronged framework of Strickland, the Sixth Amendment guarantee of the right to
counsel in a criminal proceeding is violated if “counsel’s performance was
deficient” and “the deficient performance prejudiced the defense.” 466 U.S. at 687.
In assessing a claim that counsel’s representation did not meet the constitutional
minimum, the court is to “indulge in a strong presumption that counsel’s conduct
f[ell] within the wide range of professional assistance.” Id., 466 U.S. at 689.
Petitioner bears the burden of showing the state court applied Strickland to the
facts of his case in an objectively unreasonable manner. See, Bell v. Cone, 535
U.S. 685,698-99 (2002).
Under AEDPA’s

u (

reasonable application clause,’ a federal habeas court

may grant the writ if the state court identifies the correct governing legal principle
from [the] Court’s decisions but unreasonably applies that principle to the facts of
the prisoner’s case.” Williams, 529 U.S. at 413. A state court decision involves “an
18

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 19 of 31
unreasonable application of clearly established Federal law” if “there is no
possibility fair minded jurists could disagree that the state court’s decision conflicts
with [the Supreme Court’s] precedents.” Richter, 562 U.S. at 102. That is, a
petitioner “must show that the state court’s ruling on the claim being presented in a
federal court was so lacking in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fair minded
disagreement.” Id. at 103. Or, to put it another way, so long as fair-minded jurists
could disagree on the correctness of the state court’s decision, the decision cannot
be considered unreasonable. Id. at 98-99.
This Court’s review of the Montana Supreme Court’s determination that trial
counsel did not perform deficiently is “doubly” deferential, because Strickland
requires state courts to give deference to choices made by counsel, and AEDPA, in
turn, requires this Court to defer to the determinations of state courts. Harrington
v. Richter, 562 U.S. 86,105 (201 l)(quotingKnowles v. Mirzayance, 556 U.S. Ill,
123 (2009)).
a. Deficient Performance (Claims 4-6,8)
Guillen contends the Montana Supreme Court unreasonably determined that
Sheehy did not perform deficiently, contrary to clearly established law, even
though he failed to interview Roberto and instead: relied on a law enforcement
report that Roberto had no recollection of the incident (Claim 4); relied upon a
19

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 20 of 31

- newspaper article that stated Roberto had no recollection of the incident (Claim 5);
and, proceeded to sentencing without Roberto’s involvement for purportedly
tactical reasons (Claim 6). Additionally, Guillen believes the Montana Supreme
Court’s determination that Sherry Sleepingbear’s testimony was more credible than
Roberto’s in resolving the deficient performance allegation against Sheehy was
unreasonable. (Claim 8).
To satisfy the deficient performance prong, the petitioner must prove
counsel’s performance was so deficient that it “fell below an objective standard of
reasonableness” established by “prevailing professional norms.” Strickland, 466
U.S. at 687-88.
Sheehy explained the benefit of negotiating for a lesser charge of attempted
mitigated deliberate homicide on Guillen’s behalf was that it limited his exposure
from a potential 100-year sentence to a maximum 40-year sentence. (Doc. 1-1 at
118:3-7). Sheehy also explained the concerns he shared with Guillen regarding
proceeding to trial:
Sheehy:

I think I flat out told him that if we went to trial, we had
attempted deliberate homicide or attempted mitigated deliberate
homicide, and I think I told him it would be difficult to sell the
attempted mitigated for two reasons.
One—and this is the main one—when you do that as a lesser
offense, a jury first has to decide that you committed the act of
[attempted] deliberate homicide before they can consider
whether you did it under—what do we call it—extreme stress
or there’s a reasonable explanation based on extreme stress.
20

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 21 of 31

That’s a very—very difficult thing to argue to a jury but I think
I did tell him that if we went to trial, he was going to be
convicted.
Marks:

And why did you feel that was the case?

Sheehy:

Mainly because of the people you just brought in to testify
ahead of me that were eyewitnesses who saw what happened.

Id. at 119: 7-24.
Additionally, Sheehy stated that Guillen never provided him a reason to
believe the eyewitness accounts were incorrect or professed he was actually
innocent of running over Roberto. Id. at 119-120. Apparently, a determination
was ultimately made that a plea resolution was in Guillen’s best interest.
Sheehy explained he did not find it necessary to interview Roberto before
the change of plea hearing, because he was unclear with law enforcement and told
them either the brother had hit him while he was riding his bike or he ran over him.
Id. at 116: 5-8. Additionally, prior to the change of plea hearing Sheehy had read a
newspaper article in which Roberto told the reporter, in reference to Guillen, “This
is the guy that ran over me.” Id. at 116: 9-13. Sheehy explained he did not believe
Roberto would help Guillen’s case. Id. at 116: 17-19.
Following the change of plea hearing, Sheehy became aware from the PSI
writer that Roberto did not want to participate in sentencing. Sheehy explained
that it was his belief it may have been counterproductive to have Roberto involved
21

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 22 of 31
at sentencing because he could have said things that would have been detrimental
to Guillen’s sentencing arguments. Id. at 128-129. Sheehy was of the general
belief that it is a bad idea to involve a victim at sentencing who doesn’t want to be
involved when attempting to obtain a favorable sentence. Id.
Sheehy also explained that even if he had interviewed Roberto and even if
Roberto had contradicted the statements given at the time and told Sheehy it was
an accident, Sheehy still didn’t believe such a statement would have changed the
outcome for Guillen. Id. at 126. Sheehy explained the issue then would have been
one for trial. Sheehy stated his hypothetical conversation with Guillen would have
gone like this, “Here’s what [Roberto] said [it was an accident], but I have to tell
you, you’ve got all these other witnesses that are going to come in and say it
wasn’t, and I don’t think you can win at trial.” Id. at 126-127.
Based upon Sheehy’s testimony the district court and Montana Supreme
Court both determined Sheehy made a reasonable tactical decision not to interview
Roberto prior to the change of plea hearing or attempt to involve him in the
sentencing proceedings. Additionally, the Montana Supreme Court noted that
Sherry Sleepingbear’s sentencing hearing testimony, supported Sheehy’s belief
that Roberto did not want to discuss the incident or be involved in the trial court
proceedings.7

7 See, Guillen, 2018 MT 71,^20.
22

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 23 of 31
The cases Guillen cites in support of his claim of deficient performance are
factually distinct and/or inapposite. Guillen first relies upon Howard v. Clark, 608
F. 3d 653 (9th Cir. 2010), a case where the Ninth Circuit determined the petitioner
was entitled to habeas relief on his claim that trial counsel provided ineffective
assistance for failing to call the surviving victim of a shooting for which Howard
was convicted’following a jury trial. In Howard there was a factual dispute as to
the identity of the shooter, with eyewitnesses providing conflicting accounts. In
Guillen’s case there was no question who was driving that van that ran over
Roberto. Additionally, Howard maintained his innocence and repeatedly insisted
that his trial counsel call the surviving victim as a trial witness. The Circuit
determined Howard’s attorney was obligated to take his client’s request seriously.
Howard, 608 F. 3d. at 570. As set forth above, Guillen did not profess his
innocence nor did he insist Sheehy interview Roberto or call him as a witness at
the sentencing hearing. Moreover, despite not involving Roberto in the change of
plea or sentencing proceedings, Sheehy assessed the case and evidence and
determined that Roberto’s involvement could actually be detrimental to Guillen.
The second two cases upon which Guillen relies are also factually distinct
because they are both involve self-defense claims. See, Riley v. Payne, 352 F. 3d
1313 (9th Cir. 2003), and Dorsett v. Uribe, 599 Fed. Appx. 808 (9th Cir. 2015).8 In

Both of these opinions are attached to Guillen’s petition. See, (Doc. 1-1 at 20323

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 24 of 31

Riley, the Circuit granted the writ of habeas corpus to petitioner Riley who claimed
he was acting in self-defense. The Circuit determined trial counsel performed
deficiently when he failed to interview or call a critical witness who was present
during the shooting and who supported Riley s claim of self-defense. See, (Doc.
1-1 at 208-09.) In Dorsett, the Circuit, relying upon Riley, also granted a writ to
Dorsett who claimed he was acting in self-defense and alleged his trial counsel
provided ineffective assistance for failing to interview a fellow gang member who
was present for the shooting and corroborated Dorsett’s claim of self-defense.
(Doc. 1-1 at 217.) In these cases, the issue was whether the witness testimony that
was not sought out might have bolstered the respective petitioners’ claim of selfdefense. The failure to seek out this testimony in Riley and Dorsett constituted
deficient performance.
But Guillen did not claim he was acting in self-defense and, as set forth
above, he never advised Sheehy during the underlying proceedings that what
occurred was an accident. But, even if it were an accident, as explained by Sheehy,
that created a question of fact for the jury and would not have facilitated the
negotiated resolution for the lesser charge of attempted mitigated deliberate
homicide. Additionally, as set forth above there was no corroboration for
Roberto’s claim, more than three years after the fact, that the incident may have

217).
24

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 25 of 31
been an accident or partly his fault.9 To the contrary, even at the time of the
postconviction hearing, all three eyewitnesses provided unequivocal testimony that
Guillen’s act of running over his brother was intentional. Roberto’s PCR
testimony was deemed unreliable. Guillen has provided nothing that would
undermine the state court’s finding regarding the lack of credibility of Roberto’s
testimony.
Likewise, although Guillen takes issue with testimony provided by
Sleepingbear, he has not established the state courts’ conclusion that her testimony
supported Sheehy’s belief at the time of sentencing that Roberto did not wish to be
involved in the proceedings, and potentially involving Roberto could have
jeopardized a more favorable sentence, was unreasonable.
Accordingly, following his investigation Sheehy made a reasonable
professional determination that further involvement of Roberto in Guillen’s
criminal proceedings was unnecessary and potentially detrimental. See,
Strickland, 466 U.S. at 691. Or put another way, Guillen has failed to establish the
state courts unreasonably decided, in his exercise of professional judgment, Sheehy
made a reasonable decision to limit the investigation and involvement of Roberto.
Because fair-minded jurists could disagree on the correctness of the state court’s
decision, the decision is not to be considered unreasonable. See, Richter, at 98-99.
9 The incident occurred on July 30,2011; Roberto provided his affidavit in support
of Guillen’s PCR petition on December 17,2014. See, (Doc. 1-1 at 147-48.)
25

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 26 of 31

Therefore, the state court decision was reasonable and should be afforded
deference.
b. Prejudice (Claims 7,9)
As both prongs of the Strickland test must be satisfied to establish a
constitutional violation, a failure to satisfy either requires a petitioner’s ineffective
assistance of counsel claim be denied. Strickland, 466 U.S. at 697. A federal
habeas court considering an ineffective assistance claim need not address the
prejudice prong of Strickland “if the petitioner cannot even establish incompetence
under the first prong.” Siripongs v. Calderon, 133 F. 3d 732,737 (9th Cir.), cert
denied, 525 U.S. 839 (1998). Nonetheless, the Court will still examine Guillen’s
prejudice claims.
Guillen claims the Montana Supreme Court’s determinations that he entered
a guilty plea even though he believed the incident was an accident, (Claim 7), and,
correspondingly, that his guilty plea was voluntary, (Claim 9), were objectively
unreasonable.
To demonstrate Strickland prejudice:
[t]he petitioner need not show that the deficient performance more likely
than not altered the outcome of the case, but must demonstrate only “a
reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.”
Hartv. Gomez, 174 F. 3d 1067,1069 (9th Cir. 1999) (quoting Strickland, 466 U.S.
26

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 27 of 31
at 694).
As set forth above, the Court noted Guillen testified at the PCR hearing that
'

he pled guilty, even though he believed the incident was an accident, because he
wanted to take advantage of the State’s offer to resolve the case by limiting his
prison exposure from 100 to forty years. Guillen, 2018 MT 71,21. Accordingly,
Guillen failed'to establish a reasonable probability that, but for Sheehy’s purported
errors, he would have not entered a guilty plea. Id.
Guillen seems to argue that had Sheehy interviewed Roberto following the
incident, Roberto would have provided helpful testimony. Based upon this helpful
testimony, Guillen would have not pled guilty, but instead would have gone to trial
and been acquitted. See e.g., (Doc. 2 at 3,10). Guillen also believes the statement
he provided in conjunction with his PSI report supports this theory:
In your own words, what did you do to get arrested on this charge?
I was taking my baby’s mother to the methadone clinic. My brother stopfed]
my van wanted me to help him find his dog. He didn’t give me a chance to
explain that I was on my way to the gas station where she always runs to,
and he [went] right to smashing my windshield. As he was attacking my van
I jumped out of my van, then he got to striking me. Then we had a fist fight.
Then at some point we stopped. Then Melisa ran down the street crying. So
I got back in the van to get her and he was getting on his bike. Didn’t see
him, drove over him.
What reason do you have for your involvement in this offense?
I was under a lot of stress. My brother damaging] my windshield. [Made]
it hard to see out the windshield. I told him I was under a lot of stress and
not to damage my vehicle.
(Doc. 1-1 at 153.)
27

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 28 of 31

As set forth above, there was ample reason to believe at the time of the
underlying proceedings that Roberto did not want to be involved. The Court
understands that years after the fact he was claiming he actually attempted
involvement at the trial-court level and believed the incident may have been an
accident or that both brothers may have been at fault. But at the time of the trial
court proceedings, there was nothing to indicate to any party that Roberto wished
to be involved, much less that he would have provided helpful testimony. Roberto
,

did not return calls to the PSI-writer and ostensibly sent Sleepingbear to the
sentencing hearing to testify in his stead.
Moreover, die additional facts that Guillen cites, in support of his attempt to
demonstrate that he would have not entered a guilty plea, were known to him at the
time of his change of plea and sentencing hearing: that his windshield was
damaged, that he had difficulty seeing out the windshield, that he purportedly did
not see Roberto before running him over. Guillen was also aware that there were
three eyewitnesses that strongly believed he intentionally ran Roberto over with the
van and would testify accordingly. In weighing his options, Guillen elected to
enter a plea to a less serious offense than that originally charged.
Guillen has presented nothing to this Court to establish that but for Sheehy’s
failure to interview Roberto, a reasonable probability exists that the result of the
proceedings would have been different. Guillen was aware of his options,
28

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 29 of 31

including exercising his right to a jury trial, and elected to plead guilty. He has not
established his guilty plea was involuntary. Guillen has not shown that the
Montana Supreme Court’s decision was so lacking in justification that there is no
possibility for fair minded disagreement. See, Richter, at 103. Accordingly, the
state court’s finding that Guillen was not prejudiced is reasonable and should be
afforded deference under 28 U.S.C. § 2254(d).
VI.

Certificate of Appealability

‘The district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant.” Rule 11(a), Rules governing § 2254
Proceedings. A COA should issue as to those claims on which a petitioner makes
a “substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). The standard is satisfied if “jurists of reason could disagree with the
district court’s resolution of [the] constitutional claims” or “conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel, 529 U.S. 473,484
(2000)).
Guillen’s petition should be denied. His claims do not survive deferential
review under 28 U.S.C. § 2254(d). There are no close questions and there is no
reason to encourage further proceedings in this Court. A certificate of
appealability should be denied.
29

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 30 of 31

Based on the foregoing, the Court enters the following:
ORDER
The Clerk of Court is directed to file a copy of the Findings of Fact and
Conclusions of Law and Order entered on March 15,2Q16, in Guillsn v. Montano.)
DV-15-55, into the record in this matter.
RECOMMENDATION
1. Guillen’s Petition (Doc. 1) should be DENIED for lack of merit because it
does not survive deferential review.
2. The Clerk of Court should be directed to enter judgment in favor of
Respondents and against Petitioner.
3. A certificate of appealability should be DENIED.
NOTICE OF RIGHT TO OBJECT
TO FINDINGS & RECOMMENDATION
AND CONSEQUENCES OF FAILURE TO OBJECT
Guillen may object to this Findings and Recommendation within 14 days.10
28 U.S.C. § 636(b)(1). Failure to timely file written objections may bar a de novo
determination by the district judge and/or waive the right to appeal.
Guillen must immediately notify the Court of anv change in his mailing

10 Rule 6(d) of the Federal Rules of Civil Procedure provides that “[w]hen a party
may or must act within a specified time after being served and service is made
under Rule 5(b)(2)(C) (mail) ... 3 days are added after the period would otherwise
expire under Rule 6(a).” Therefore, since Guillen is being served by mail, he is
entitled an additional three (3) days after the period would otherwise expire.
30

Case 9:19-cv-00022-DLC Document 10 Filed 11/05/19 Page 31 of 31

address. Failure to do so may result in dismissal of his case without notice to him.
DATED this

5

day of November, 2019.

J^3Wy4Katldeen L. DeSoW
United States Magistrate Judge

31

)

